<html>
<title> - DRUG ADDICTION AND RECOVERY</title>
<body><pre>[Senate Hearing 105-573]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-573


 
                      DRUG ADDICTION AND RECOVERY

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate

                                 ______

                        U.S. GOVERNMENT PRINTING OFFICE
 49670 cc                      WASHINGTON : 1998
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402
                           ISBN 0-16-057320-3


                      COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                 ARLEN SPECTER, Pennsylvania, Chairman
THAD COCHRAN, Mississippi            TOM HARKIN, Iowa
SLADE GORTON, Washington             ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        DANIEL K. INOUYE, Hawaii
JUDD GREGG, New Hampshire            DALE BUMPERS, Arkansas
LAUCH FAIRCLOTH, North Carolina      HARRY REID, Nevada
LARRY E. CRAIG, Idaho                HERB KOHL, Wisconsin
KAY BAILEY HUTCHISON, Texas          PATTY MURRAY, Washington
                      Majority Professional Staff
                            Bettilou Taylor

                      Minority Professional Staff
                              Marsha Simon

                         Administrative Support
                              Jim Sourwine



                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening remarks of Senator Arlen Specter.........................     1
Summary statement of Senator Paul Wellstone......................     2
    Prepared statement...........................................     3
Summary statement of Representative Ramstad......................     4
    Prepared statement...........................................     5
Alcoholism.......................................................     6
Statement of Buzz Aldrin, Ph.D., former astronaut and chief 
  executive officer, Starcraft...................................     6
    Prepared statement...........................................     7
Summary statement of Shawn Colvin, recording artist..............     8
Statement of Fred D. Hafer, chairman, president and chief 
  executive officer, General Public Utilities, Inc...............    10
    Prepared statement...........................................    11
Statement of Alan I. Leshner, Ph.D., director, National Institute 
  on Drug Abuse..................................................    12
    Prepared statement...........................................    13
Statement of Bill Moyers, executive director/host, PBS ``Moyers 
  on Addiction: Close to Home''..................................    15
Statement of William Cope Moyers, director of public policy, the 
  Hazelden Foundation............................................    16
    Prepared statement...........................................    17
Remarks of Senator Max Cleland, U.S. Senator from Georgia........    18
Statement of Carroll O'Connor, television, film, and broadway 
  actor..........................................................    19
    Prepared statement...........................................    20
Drug grand juries................................................    21
Statement of MacKenzie Phillips, television and film actress.....    21
Statement of John T. Schwarzlose, president, the Betty Ford 
  Center.........................................................    22
    Prepared statement...........................................    23
Corporate America................................................    25
Prepared statement of Senator Larry E. Craig, U.S. Senator from 
  Idaho..........................................................    31
  



                      DRUG ADDICTION AND RECOVERY

                              ----------                              


                        TUESDAY, MARCH 24, 1998

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:45 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Arlen Specter (chairman) 
presiding.
    Present: Senators Specter, Faircloth, Craig, and Bumpers.
    Also present: Senators Cleland and Wellstone, and 
Representative Ramstad.

                       NONDEPARTMENTAL WITNESSES

STATEMENTS OF:
        BUZZ ALDRIN, Ph.D., FORMER ASTRONAUT AND CHIEF EXECUTIVE 
            OFFICER, STARCRAFT
        SHAWN COLVIN, RECORDING ARTIST
        FRED D. HAFER, CHAIRMAN, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
            GENERAL PUBLIC UTILITIES, INC.
        ALAN I. LESHNER, Ph.D., DIRECTOR, NATIONAL INSTITUTE ON DRUG 
            ABUSE
        BILL MOYERS, EXECUTIVE DIRECTOR/HOST, PBS ``MOYERS ON 
            ADDICTION: CLOSE TO HOME''
        WILLIAM COPE MOYERS, DIRECTOR OF PUBLIC POLICY, THE HAZELDEN 
            FOUNDATION
        CARROLL O'CONNOR, TELEVISION, FILM, AND BROADWAY ACTOR
        MacKENZIE PHILLIPS, TELEVISION AND FILM ACTRESS
        JOHN T. SCHWARZLOSE, PRESIDENT, THE BETTY FORD CENTER

                   opening remarks of senator specter

    Senator Specter. I would like Senator Wellstone and 
Congressman Ramstad to join us here at the podium. We have Dr. 
Aldrin, Ms. Colvin, Mr. Grammer, Mr. Hafer, Dr. Leshner, Mr. 
Moyers, Mr. Carroll O'Connor, Ms. Phillips, and Mr. 
Schwarzlose.
    We are going to move ahead now with a very short 
introductory statement by Senator Wellstone as the other 
witnesses take their chairs. I am sorry to move along so 
rapidly, but we are going to have to conclude this hearing 
within slightly under 1 hour.
    Senator Wellstone, the floor is yours, briefly.

              summary statement of senator paul wellstone

    Senator Wellstone. I thank you, Mr. Chairman. And I am also 
here with my colleague, Representative Ramstad, who speaks with 
a great deal of eloquence about this issue.
    I would ask unanimous consent that I might be able to 
submit to the committee a complete written statement.
    Senator Specter. Yes; by all means, it will be made a part 
of the record.
    Senator Wellstone. I thank the chair.
    Mr. Chairman, let me just make three quick points in less 
than 3 minutes. First of all, we were at a gathering this 
morning which focused on a very powerful documentary that Bill 
Moyers has done. And I think it speaks volumes about why we 
must, in this Congress, pass a piece of legislation that would 
provide parity in the treatment for people who are struggling 
with substance abuse.
    Mr. Chairman, we did that with the mental health area. Now 
we need to do it in the substance abuse area. What we are 
essentially saying is that there will be no mandate, but when a 
plan covers substance abuse, we want to make sure that it is 
covered the same way as any other illness.
    The research has been done. The medical evidence is 
irreducible and irrefutable. We see the neurological 
connections, the biochemical connections, and we can treat this 
illness. And we can make an enormous difference. And what this 
legislation that Congressman Ramstad and I have introduced does 
is to make sure that we end the discrimination and we get the 
assistance to people, and we get the assistance to their 
families.
    Mr. Chairman, I could go on and on and on about why this is 
the right thing to do. I could go on and on and on about all 
the ways in which it is cost effective. Let me just simply say 
to you today that you are going to hear some powerful testimony 
from experts and you are going to hear some powerful testimony 
from families that have dealt with this illness.
    And, most important of all, you are going to hear from 
people in the recovery community. With adequate treatment, we 
have been able to do well for our families. We have been able 
to do well for our communities. We have been able to do well 
for our country. And that should be the goal of the U.S. 
Senate: to make sure that families are able to do that.

                           prepared statement

    I will, as I said to you earlier, provide the complete 
details as we move forward with this legislation. We want to 
pass this legislation. And we thank you, Chairman Specter, for 
giving us this hearing. This is the first major step that we 
are taking to pass really good legislation that will make an 
enormous difference in the lives of people.
    I thank you.
    Senator Specter. Thank you very much, for your statement 
Senator Wellstone. I would also like to thank you for your 
leadership on this important subject.
    [The statement follows:]

            Prepared Statement of Senator Paul D. Wellstone

    Mr. Chairman, I want to thank you for the opportunity to 
speak to the subcommittee this morning on an extremely critical 
health issue facing millions of Americans--substance abuse 
addiction.
    Last September, I introduced legislation (The Substance 
Abuse Treatment Parity Act of 1997; S. 1147) that will ensure 
that private health insurance companies pay for substance abuse 
treatment services at the same level that they pay for 
treatment for other diseases. Today, you will hear powerful 
testimony about how badly this treatment coverage is needed, 
and how substance abuse has affected the lives of so many 
Americans throughout our country.
    Substance abuse addiction is a chronic, relapsing disease. 
For too long, it has been viewed as a moral issue--or a measure 
of personal weakness. We have all seen terribly negative 
portrayals of alcoholics and addicts as less than human, as 
somehow unworthy of treatment, and these only reinforce the 
biases against people who have this disease. Such portrayals 
would not be tolerated if they were made of individuals 
suffering from cancer or heart disease. They should not be 
tolerated with substance abuse.
    People ask me, but who will pay for this? But the truth is, 
we all do, already. Of all general hospital patients, 25-50 
percent suffer from alcoholism-related complications, according 
to a 1996 commission on Model State Drug Laws. In addition, 65 
percent of emergency room visits are alcohol or drug related. 
Business pays already too, for the failure to provide 
treatment. The same report said that substance abuse costs 
American businesses nearly $100 billion in increased medical 
claims, medical disability, injuries, and decreased 
productivity. After treatment, absenteeism, disability, and 
disciplinary actions all decreased by more than 50 percent. A 
recent Chevron study reported that for every $1 spent on 
substance abuse treatment, $10 is saved in related costs.
    Who doesn't pay--not yet--are those insurance companies who 
discriminate against individuals suffering from the disease of 
substance abuse by setting up barriers to care. As a result of 
these barriers, many individuals do not get treatment, and 
then, the individual, and the individual's family, friends, 
coworkers, employers, and all of us suffer from the 
consequences.
    What is the cost for parity for substance abuse treatment? 
The Milliman and Robertson study estimated that a full and 
complete substance abuse parity provision would increase 
``composite'' per capita health insurance premiums (aggregated 
across fee-for-services, PPO, and HMO plans) by only 0.5 
percent, or less than $1 per member per month.
    A report just released today, by the Substance Abuse and 
Mental Health Services Agency, stated that full parity for 
mental health and substance abuse services in private health 
insurances plans that tightly manage care would increase family 
insurance premiums by less than 1 percent. For full coverage 
across all forms of coverage, the increase is 3.6 percent, but 
of that, only 0.2 percent is attributable to substance abuse 
treatment costs.
    Substance abuse parity, and mental health parity, is a 
growing movement. In addition to federal legislation, 84 parity 
bills were introduced in 37 States during 1997. It is time for 
the Federal Government to enact legislation to provide for full 
parity for both substance abuse and mental health treatment.
    Dramatic advances in neuroscience and the behavioral 
sciences have revolutionized our understanding of drug abuse 
and addiction. New information about brain circuitry, neural 
receptors, and biochemical changes have greatly increased 
scientific knowledge about the clear changes in the brain 
caused by drug addiction. We would not discriminate against 
other diseases when the brain is affected (such as Alzheimer's 
disease); we must not discriminate against this disease. Social 
attitudes and clinical practice have not kept up with these 
advances in scientific knowledge, but it's time to change our 
attitudes and make sure that the treatments that we know work 
are accessible to those who need them most. There are good 
treatments for substance abuse addiction, like the programs at 
the Hazelden Foundation in my home state of Minnesota, at the 
Betty Ford Center, and at the Valley Hope Association--you have 
heard some powerful and moving stories today from those who 
were treated at these programs--but we need to make such 
treatment programs available and accessible.
    The Substance Abuse Treatment Parity bill (S. 1147) will 
prohibit group health plans from imposing annual or lifetime 
limits, copayments, deductibles or visit limits for substance 
abuse rehabilitation unless similar requirements exist for 
other medical and surgical benefits. This bill will exempt 
small employers of at least 2 but not more than 50 employees. 
It also protects employers who incur a premium increase of at 
least 1 percent by exempting them from the act.
    In closing, the important thing to remember is that 
substance abuse treatment is about fairness, plain and simple. 
Substance abuse is a chronic, relapsing disease, and it needs 
coverage that can allow proper management of this disease. To 
fail to provide treatment for those suffering from this disease 
is costly, and leads to broken families, broken lives, and 
broken dreams. We need to do more to help. This hearing today 
is an important step to making sure we change the attitudes and 
practices in our society that lead to this discrimination. A 
critical next step is the passage of the Substance Abuse 
Treatment Parity Act.
    Thank you.

              summary statement of representative ramstad

    Senator Specter. I am going to turn now to Congressman Jim 
Ramstad. He was first elected to the House in 1990, and 
reelected in 1996. He is the principal sponsor of House bill 
2409, to give people who suffer for alcoholism and drug 
addiction access to treatment. He has some personal experience 
himself.
    The floor is yours, briefly, Congressman Ramstad.
    Mr. Ramstad. Thank you very much, Chairman Specter. I, too, 
thank you for your leadership on this issue and for holding 
this hearing today on drug and alcohol addiction, which is a 
life or death issue to the 26 million American people presently 
suffering the ravages of chemical dependency of drug alcohol 
addiction.
    Mr. Chairman, this is not just another public policy issue 
to me. I awakened from my last alcoholic blackout in a jail 
cell on July 31, 1981. I am here today, almost 17 years later, 
as a grateful recovering alcoholic. And as a recovering 
alcoholic, and as someone who stays close to treatment 
professionals in Minnesota and to other recovering people, 
believe me, I have seen firsthand the value of treatment for 
people like me, who are chemically dependent.
    In the next hour, Mr. Chairman, members, many courageous 
individuals will come forward and tell of their tragic, heroic 
struggles of living with this insidious disease. They will tell 
also about how treatment has saved their lives, their families, 
their careers, their communities.
    Mr. Chairman, I think my friend, Dr. Mitch Perlstein, back 
in Minnesota, head of a conservative think tank, put it best 
when he said: ``America is in a haze, numb to the pervasiveness 
and destructiveness of drugs and alcohol.'' Well, Mr. Chairman, 
with all respect, so is most of Congress in a haze about 
addiction. Too many members of Congress simply do not get it.
    I am hopeful today that because these people are coming 
forward--people like Bill Moyers, Judith Moyers, and William 
Cope Moyers, the people of Hazelden and the Betty Ford Center, 
and the series that is going to be aired March 29, through 31--
I am hopeful that Congress start getting it, start 
understanding addiction. It is a disease and it is treatable. 
Treatment works and we need to provide substance abuse 
treatment parity for the 26 million Americans, or 10 percent of 
our population, who are out there today, suffering the ravages 
of this horrible, fatal disease.
    As you know, Senator Wellstone and I have introduced the 
Substance Abuse Treatment Parity Act to prohibit health plans 
from discriminating against those who need treatment, pure and 
simple, saying that they cannot erect barriers that they do not 
for treatment of physical diseases. This is not only the right 
thing to do, but it is clearly the cost-effective thing to do.

                           prepared statement

    Mr. Chairman, I know time is limited, so I am going to 
conclude. But we have all the empirical data, all the studies, 
all the research in the world to support that conclusion. So, 
again, I applaud your leadership over here on the Senate side, 
and that of your colleagues. We need to pass parity legislation 
this year, because it is a matter of life or death.
    Thank you again, Mr. Chairman.
    [The statement follows:]
            Prepared Statement of Representative Jim Ramstad
    Chairman Specter, thank you for allowing me to testify today before 
this hearing on drug addiction and recovery. I am grateful you have 
chosen to hold this hearing on this critical issue to 26 million 
American people presently suffering the ravages of drug and alcohol.
    As a recovering alcoholic, I've seen first-hand the value of 
treatment for people who are chemically dependent. In the next hour, 
many brave individuals will come forward and tell of their tragic, yet 
heroic struggles of living with this insidious disease. They will also 
tell about how treatment has saved their lives, their families and 
their communities.
    As you are listening to these witnesses today, I hope you consider 
what our role as public policy makers can be to help reduce the numbers 
of people and families afflicted with this disease. As you listen 
today, please consider the following statistics:
  --Nearly 26 million Americans today suffer from addiction;
  --Alcoholism and drug addiction cost this country $90 billion last 
        year in addition to even great human costs: tragic deaths, 
        violent crime, broken families and shattered lives; and
  --A study by Columbia University's National Center on Addiction and 
        Substance Abuse found that alcohol or drugs contributed to 80 
        percent of all crimes.
    As someone who stays close to recovering people and treatment 
professionals in Minnesota, I've been alarmed by the dwindling access 
to treatment for people who need help. I understand the value of 
treatment and hope you will consider these facts and the other 
testimony today that points out the effectiveness of treatment:
  --Dr. Thomas McLellan of the University of Pennsylvania found that 
        long-term drug treatment is as effective as long-term treatment 
        for chronic diseases, such as diabetes;
  --Former Assistant Health Secretary Philip Lee reported that every 
        dollar invested in treatment can save $7 in societal and 
        medical costs;
  --A Rutgers University study found that untreated alcoholics incur 
        general health care costs that are 100 percent higher. After 
        treatment, days lost to illness, sickness claims and 
        hospitalizations dropped by half; and
  --A Brown University study found that drug treatment can reduce crime 
        by 80 percent.
    As you know, Senator Wellstone and I have introduced the Substance 
Abuse Treatment Parity Act to prohibit health plans from imposing 
limitations on substance abuse coverage that are different from those 
requirements for other health care services.
    This is not only the right thing to do, it is also the cost-
effective thing to do. Two very important studies, one released last 
September by the actuarial firm Milliman and Robertson and the other 
just released this morning by the Substance Abuse and Mental Health 
Services Administration (SAMHSA), show how inexpensive our legislation 
is, with both showing premiums may increase less than one half of one 
percent.
    As Dr. Mitch Pearlstein, from Minnesota, said before the Ways and 
Means Committee earlier this year, ``America is in a haze, numbed to 
the pervasiveness and destructiveness of drugs and alcohol.'' Thank you 
very much for calling this hearing today to try to cut through the haze 
and educate members on the importance of treatment.

                               alcoholism

    Senator Specter. Thank you very much Congressman Ramstad 
for sharing your personal experiences with us and for your 
leadership on this important issue.
    Just a personal note or two. My experience with the 
problems of alcoholism and drug addiction were highlighted when 
I was district attorney of Philadelphia many years ago. As an 
assistant district attorney, we used to have the so-called drug 
tank, where people would be arrested for being drunk. When the 
Supreme Court, in the midsixties, said that alcoholism was a 
disease and it was something you could not prosecute for.
    When I was district attorney, we had the first 
rehabilitation center, Gaudensia House. A $250,000 grant for 
then, Gov. Raymond Schafer, a tremendous amount of money any 
time, but especially in 1968, to start drug treatment. The 
ravages of alcoholism and drug use figure very heavily in our 
criminal courts. We have moved ahead with drug courts, to try 
to take people off the street at the time of arrest, so that 
there are no repeat offenses, and to help them get treatment. 
This is a subject which has ramifications in many, many 
directions.
    The purpose of our hearing today, with a very distinguished 
assemblage of witnesses, is to give some public exposure to 
this problem. To try and get the public sentiment and pressure 
to have some action by Congress, as Congressman Ramstad 
articulates in very forceful terms.

                    summary statement of buzz aldrin

    We are under very heavy time constraints. We started a 
little early today with panel 1, at 9:30 a.m., and we have to 
conclude this panel by noon. We are now going to proceed with 
Dr. Buzz Aldrin, who, along with Neil Armstrong, were the first 
astronauts to walk on the Moon. Dr. Aldrin is the recipient of 
the Presidential Medal of Freedom, authored a biography, 
``Return to Earth,'' and has a great deal to say about this 
subject.
    Welcome, Dr. Aldrin, and the floor is yours.
    Mr. Aldrin. Thank you, Mr. Chairman. Good morning, 
Senators, ladies and gentlemen.
    Let me say it is a true privilege to be here in Washington, 
to be able to testify before the U.S. Senate. As you know, I 
have been blessed by some unusual and wonderful experiences in 
my life. I have been able to look back at this little blue 
planet, to see it from a rather unusual perspective, and to see 
it against the vast blackness of space. It is a fact, and it is 
also a metaphor I want to indulge for a moment.
    In 1969, I traveled to the Moon. Neil and I set foot on the 
Moon surface, and somehow we all, as Americans, as humans, 
young and old, we celebrated the triumph of human ingenuity and 
imagination over the vast darkness of space. Together, this 
Nation set its sights on a seemingly unattainable goal. And, 
together, we achieved that goal. A lot of those people in 
mission control, then and today, were young and talented and 
held themselves to the highest possible standard of excellence.
    Today, there are many challenges facing this Nation. It is 
still a great Nation, the greatest on Earth. But we are 
confronting challenges that are daunting--no less daunting than 
getting to the Moon and back safely. One of those is the 
insidious challenge posed by increasing use of deadly drugs by 
our kids. Let me say that drugs will rob a talented young 
American of his or her dreams faster than almost any other 
mistake they could make. And it is up to the Nation's leaders 
to help our kids realize their dreams, protect their futures, 
and make the most of themselves--not to let them get swept into 
the vortex of this rising and insidious national threat.
    Since 1969, I have helped raise a family, and worked with 
many young Americans. I have spoken to kids across the country 
about their lives and their dreams. But what has brought me to 
Washington today is the fear that America's next generation is 
getting swallowed up by the vast darkness of drugs.
    There are certainly dangers associated with alcohol and 
tobacco. And I do not mean to minimize them. I have had my own 
close encounters with dependency on alcohol. I am approaching 
20 years of sobriety this fall. And I would counsel, from 
personal experience, against developing such a dependency. But 
there is an immediacy, an insidiousness and a swift deadliness 
that comes from drug use. And I feel it is worth warning our 
children about it.
    Let me mention a few statistics, because they startled me. 
Nearly half of all 17-year-olds today say they can buy 
marijuana within an hour. The proportion of eighth-graders 
using illegal drugs has almost doubled since 1993. In 1995, 
drug-related emergency room incidents jumped by 12 percent. 
Cocaine episodes rocketed up 21 percent.
    Senator Specter. Dr. Aldrin, I am sorry to interrupt you. 
Your full statement will be made a part of the record. And if 
you could summarize the balance, we would appreciate it.

                           prepared statement

    Mr. Aldrin. In my humble view, too many young Americans 
have forgotten to think big, dream big and set their sights on 
such basic goals as the contentment that comes from hard work. 
I think we have a responsibility to our young people to pass 
the laws that are needed, so that parity, I guess is what we 
call it, the equal treatment of what we understand that the 
medical community has judged to be a disease, that that is 
treated equally and that insurance coverage is afforded that.
    I know I have had my own experiences with that. I think I 
would just like to cease here, and answer any questions that 
the panel may have.
    Senator Specter. Thank you very much, Dr. Aldrin.
    [The statement follows:]

                   Prepared Statement of Buzz Aldrin

    Good Morning Senators, Ladies and Gentlemen. Let me say it 
is a true privilege to be here in Washington, and to be able to 
testify before the United States Senate. As you know, I've been 
blessed by some unusual and wonderful experiences in my life. I 
have been able to look back at this little blue planet, to see 
it from a rather unusual perspective, and to see it against the 
vast blackness of space. That's a fact and it's also a metaphor 
I want you to indulge with me for a moment.
    In 1969, I traveled to the Moon. Neil and I set foot on the 
Moon's surface, and somehow we all--as Americans, as humans, 
young and old--we celebrated the triumph of human ingenuity and 
imagination over the vast darkness of space. Together, this 
great nation set its sights on a seemingly unattainable goal, 
and together we achieved that goal. A lot of those people in 
Mission Control then, and today, were young and talented and 
held themselves to the highest possible standard of excellence.
    Today, there are many challenges facing this nation. It is 
still a great nation--the greatest on Earth. But we are 
confronting challenges that are daunting--no less daunting than 
getting to the Moon and back safely. One of those is the 
insidious challenge posed by increasing use of deadly drugs by 
our kids. Let me say that drugs will rob a talented young 
American of his or her dreams faster than almost any other 
mistake they could make. And it is up to the nation's leaders 
to help our kids realize their dreams, protect their futures, 
and make the most of themselves--not let them get swept into 
the vortex of this rising and insidious national threat.
    Since 1969, I have helped raise a family, and worked with 
many young Americans. I have spoken to kids across the country 
about their lives and dreams. But what has brought me to 
Washington today is the fear that America's next generation is 
getting swallowed up by the vast darkness--of drugs. There are 
certainly dangers associated with alcohol and tobacco, and I do 
not mean to minimize them; I have had my own close encounters 
with dependency on alcohol and I would counsel from personal 
experience against developing such a dependency. But there is 
an immediacy, an insidiousness and a swift deadliness that 
comes from drug use, and I feel it is worth warning our 
children about.
    Let me mention a few statistics, because they startled me. 
Nearly half of all 17-year-olds today say they can buy 
marijuana within an hour. The proportion of 8th graders using 
illegal drugs has almost doubled since 1993. In 1995, drug 
related emergency room incidents jumped by 12 percent, cocaine 
episodes rocketed up 21 percent, heroin episodes leaped by 27 
percent--and these were kids.
    Across the country, drug traffickers are selling 
methamphetamine, cocaine and heroin at higher purities and 
lower prices than ever recorded. They are marketing LSD with 
pictures of the Lion King and Mickey Mouse on them. Now, I ask 
the distinguished Senators on this Committee and the parents 
who may be watching whether you think these drug traffickers 
are marketing LSD with the Lion King on it to 16 or 18 year 
olds? No, they are marketing it to 8 year olds; that is what 
recent studies by groups like the University of Michigan, CADCA 
and PRIDE all indicate. And according to the nationally-
recognized Partnership for a Drug Free America, only 3 out of 
10 children say their parents have talked to them about drugs.
    Now, my point is that we owe our kids--and our nation--
better than that. That is not the kind of America that will 
inspire young Americans to set high standards, steer clear of 
the black holes in life, get up early, work hard and dream 
about going to the Moon. That is not the sort of America that 
will protect future generations by protecting the current 
generation of young people. And it is to us, and to you as the 
nation's best and brightest, the nation's leading lights, to 
get the word out about this crisis and to help get it behind 
us.
    In my humble view, too many young Americans have forgotten 
to think big, dream big, and set their sights on such basic 
goals as the contentment that comes of hard work, a loving 
family and our common purpose. Instead, we are fighting a rear-
guard action against our own indifference. The drug war, if it 
means anything, must mean that we are all in this together, 
that we must give the right funding levels and attention to 
international and domestic anti-drug programs.
    And that's where I get back to that little blue planet, to 
the smallness of our little world in the great blackness of 
space. Losing our children to the great blackness of drugs is 
no less painful than losing a precious cargo of human life in 
space. This nation was great enough to train its young people 
to build the Saturn 5 and take a few of us to that mystical 
place we call the Moon. It is surely great enough to protect 
and train the current generation of children, to give them the 
knowledge and love they need to live full and productive lives, 
and to teach them--above all--that if we work together there is 
absolutely nothing we cannot do. There is no dream too big.
    I thank you for letting me address you today, and look 
forward to any questions you may have.

                   summary statement of shawn colvin

    Senator Specter. I will turn now to Ms. Shawn Colvin, 
award-winning songwriter and singer. In 1997, Ms. Colvin 
received two Grammy Awards for her song ``Sunny Came Home,'' 
and she is currently touring as a solo performer.
    Thank you for joining us, Ms. Colvin, and the floor is 
yours.
    Ms. Colvin. Thank you. Good morning, Chairman Specter and 
subcommittee members. I am pleased to have the opportunity to 
testify before you here about my personal experience with 
addiction and recovery. And I am pleased that you have the 
courage here to talk about a disease that is shrouded with 
stigma and shame and denial.
    I do not have a lot planned to say to you. I have no facts 
to give to you, research statistics, anything like that. I am 
here to serve you as someone who suffers from alcoholism and 
has managed to stay sober for 15 years. The experience that I 
can share with you of mine is that the treatment that I went 
into, I received word of it through word-of-mouth, a friend of 
a friend of a friend. It was a support group. It will not 
advertise. It will not take donations. And it does not cost 
anything to go. And that is just information for you.
    I have thought and thought and thought about how much I 
would like to be a spokesperson for this organization, to wish 
that they would advertise. Whenever I see ads in magazines, 
``Depression hurts, Prozac helps,'' I wish there could be an ad 
for this particular thing. But this particular organization, 
addicts seem to get help from other addicts. And once I became 
aware that I did not have to drink and use drugs, I got quite 
an education about myself and about the disease of addiction.
    And it is great to be able to talk about it here today. I 
always dreamed of a day that maybe there would be interest in 
this from this level. And I have a lot of my own questions, 
actually. And hopefully, with the kind of interest that is 
coming here, maybe we can answer some of them.
    What other disease has a spiritual aspect to it? This 
disease is spiritual, mental and physical. How do we address 
that? It is a huge issue.
    What is the mystery behind why some people can stay with 
recovery and some people have to fall back again and again and 
again? These are things I do not understand.
    Just give me a moment; there was more.
    I guess I just want to emphasize that it is a disease 
shrouded in stigma, shame, and denial. And it is a very 
frustrating disease. You can lead an addict to treatment, but 
you cannot make him stop necessarily.
    So the more we can make people aware, I believe, that one 
does not need to be ashamed, that one is sick, the more we can 
help people find areas of treatment, and make that treatment 
available to them as many times as they need it. Then I think 
we will be putting the world in a better place, putting our 
money in a better place, and hopefully answering some questions 
that have been plaguing people for all time. And we have made 
some amazing advances in the past 50 years. And I appreciate 
your interest.
    Senator Specter. Thank you very much, Ms. Colvin.

                    summary statement of fred hafer

    We turn now to Mr. Fred Hafer, chairman and CEO of General 
Public Utilities. He has been extremely active in antisubstance 
abuse programs and has served as the past chairman of Drug-Free 
Pennsylvania, Inc. Thank you for joining us, Mr. Hafer, and the 
floor is yours.
    Mr. Hafer. Thank you, Mr. Chairman and members of the 
subcommittee.
    I am Fred Hafer, chairman, CEO and president of General 
Public Utilities [GPU] Inc. and I also sit on the board of 
trustees of the Caron Foundation, a treatment facility for 
addiction and rehabilitation, headquartered in eastern 
Pennsylvania.
    I am particularly grateful for the opportunity to testify 
about a subject that I truly feel passionate about. That is the 
subject of substance addiction and recovery. I sit on this 
panel as a representative of corporate America, and I also sit 
on this panel as someone who has, thus far in his life, been 
fortunate enough to avoid the disease chemical dependency.
    I believe that fundamentally, as citizens of this great 
country, we all have an obligation to contribute to the 
betterment of society, to do something, to give something back, 
if you will. Additionally, as a businessperson, I believe that 
the cost of ignoring the problems of substance abuse and 
addiction is intolerable. So, to do nothing is unacceptable 
from both a societal as well as a business perspective.
    Doing something about substance abuse addiction in the work 
place is going to require effort. It is going to require 
understanding. And yes, it is even going to probably require 
some initial capital. But I am convinced that that money will 
be quickly returned several-fold over. The sheer financial cost 
to American business as a result of chemical dependency is 
staggering.
    When you consider that the people close to employees with 
substance abuse problems--family members, coworkers, et 
cetera--are frequently adversely affected, as well, the huge 
impact that this phenomena has on our economy, and on society 
in general, becomes clear. But the news is not all bad.
    Businesses can implement policies to help prevent substance 
abuse by employees, and to help those employees and their 
family members who already have a problem. And, believe me, it 
works. At GPU, we have a strong drug and alcohol policy that is 
providing benefits. Employees with an active addiction to a 
substance can be treated, and will recover and will return to 
full productivity and a good life.
    Senator Specter. Mr. Hafer, could we ask you to submit your 
full statement for the record and summarize?
    Mr. Hafer. Yes; I will. Thank you, sir.

                           prepared statement

    I would just like to briefly touch on a piece of 
legislation that is before you today, the substance abuse 
parity legislation, which will be an important first step in 
providing access to treatment for employees. I am convinced 
that the cost savings of this approach are produced in my 
company. And I am confident that other companies will realize 
those savings, as well.
    I would like to reiterate my conviction that in our 
operation of a multinational corporation, GPU cannot afford, 
and you as legislators cannot afford, and we as society in 
general cannot afford the high cost of doing nothing.
    Thank you very much.
    Senator Specter. Thank you very much, Mr. Hafer.
    [The statement follows:]
                  Prepared Statement of Fred D. Hafer
    Mr. Chairman and members of the subcommittee, I am Fred Hafer, 
Chairman, President and CEO of GPU, Inc. GPU is a registered utility 
holding company with three domestic electric utility subsidiaries 
providing service to two million customers in Pennsylvania and New 
Jersey. GPU also owns the GPU International Group, which develops, 
owns, operates and invests in generation, transmission and distribution 
facilities domestically and abroad. I am also a member of the Board of 
Trustees of the Caron Foundation, a nonprofit addiction rehabilitation 
facility. I am grateful for this opportunity to testify on a subject 
which I feel passionate about--substance addiction and recovery.
    I believe that as citizens, we all have an obligation to contribute 
to the betterment of society--to ``give something back.'' Additionally, 
as a businessperson, I believe the cost of ignoring the problems of 
substance abuse and addiction is intolerable. To do nothing is 
unacceptable from both a societal and a business perspective.
    In all candor, doing something about substance abuse and addiction 
in the workplace requires effort, understanding and probably some 
initial investment of money. However, the money will almost certainly 
be recouped several fold.
    The sheer financial cost to American business as a result of 
chemical dependency is staggering. A full 10 percent of the American 
work force has a chemical dependency problem, according to an estimate 
by the National Institute on Drug Abuse and the National Institute on 
Alcohol Abuse and Alcoholism. A study by the U.S. Chamber of Commerce 
concluded that these workers function at about two-thirds of what is 
considered normal productivity. Additional studies have shown that the 
substance abusing workers, compared to their nonabusing colleagues:
  --Are five times more likely to file a workers' compensation claim;
  --Have unexcused absences from work twice as often; and
  --Are more likely to be involved in a workplace accident.
    When I took these national statistics and applied them to my 
company, GPU, I was stunned. The calculations indicate that if GPU is 
statistically similar to the ``norm,'' substance abuse and dependence 
could be costing GPU and its subsidiaries more than $10 million a year.
    When you consider that the people close to employees with substance 
abuse problems--family members, co-workers or friends--are frequently 
adversely affected as well, the huge impact this phenomenon has on our 
economy and our society in general becomes clear. The cost to human 
lives, personal dignity and business is enormous, and failure to 
address this cost should be an embarrassment to us all.
    But the news is not all bad. Once we have acknowledged the problem, 
we can fight it. Businesses can implement policies to help prevent 
substance abuse by employees and to help employees and their family 
members who already have a problem.
    Believe me, it works. At GPU, we have a strong drug and alcohol 
policy that includes an absolute ban on the use or possession of drugs 
or alcohol on company property or on company business. GPU also 
provides an Employee Assistance Program to give those in need of help a 
confidential, free avenue to receive the help they need. Also, our 
health plan covers a number of substance abuse treatment services, 
thereby providing savings on the future medical expenses of our 
employees.
    Employees with an active addiction to a substance can be treated 
and recover, returning to full productivity and a good life. Addiction 
is a disease--it has been recognized as one by the American Medical 
Association for the past 40 years--and it is treatable.
    At GPU, we have found that treatment of substance abuse in the 
workplace is very cost-effective for business, especially as an 
alternative to discharging the employee. Estimates of dollars saved 
range from $2 to $10 for every $1 spent on treatment. It is obvious to 
me, as it should be to anyone who chooses to look beyond the surface of 
this issue, that it is far more expensive to ignore the problem of 
substance abuse and addiction than it is to address it.
    I would like briefly to touch upon the piece of legislation that 
has been discussed today. The substance abuse parity legislation will 
be an important first step in providing access to treatment for 
employees. I am convinced of the cost savings this approach has 
produced in my company, and I am confident that other companies will 
realize the savings as well. Opponents of this legislation have argued 
that employers will drop coverage altogether if this bill is enacted. 
In my opinion, employers cannot afford not to cover these services.
    In closing, I would like to reiterate my conviction that in our 
operation of a multi-national corporation, GPU can not afford, as 
lawmakers you can not afford, and as members of society, in general, 
none of us can afford, the cost of doing nothing about substance abuse 
and addiction.
    Thank you for taking the time to address this important issue 
facing our nation.

                 summary statement of dr. alan leshner

    Senator Specter. We turn now to Dr. Alan Leshner, Director 
of the National Institute on Drug Abuse. We will be hearing 
more from Dr. Leshner when the subcommittee has a hearing with 
the National Institutes of Health. We would like just a capsule 
presentation of your views of this important subject, Dr. 
Leshner.
    Dr. Leshner. Thank you, Mr. Chairman. I am pleased to be 
here and be a part of this distinguished panel.
    My Institute supports over 85 percent of the world's 
research on drug abuse and addiction, and I believe I am 
justifiably proud of the scientific community's accomplishments 
and contributions to society. Advances in science over the past 
20 years have truly revolutionized our fundamental 
understanding of drug abuse and addiction.
    As a simple summary, we now know that drug abuse is 
preventable behavior and that drug addiction is a treatable 
disease that comes about because of the effects of long-term 
drug use on brain function. And that progress has been truly 
phenomenal.
    As just one vivid example, this poster on my right, from 
work done at the University of Pennsylvania's Comprehensive 
Drug Addiction Research Center, compares the brain of a cocaine 
addict watching a bland nature video on the left, with that 
same person watching a video of cocaine paraphernalia, seeing 
cocaine-related stimuli, but still having no drug exposure. The 
person experiences tremendous drug craving from simply seeing 
representations of drug cues. And at the same time, you can see 
his brain light up as he experiences that craving. We call this 
brain activation the memory of drugs.
    Understanding brain function and its relationship to 
addiction is of course incredibly important to how we treat 
addicts. And we know that just as with other brain diseases, 
addiction affects every aspect of a person's life. As the Bill 
Moyers' series about to come out shows, drugs hijack your 
brain. Well, because they hijack your brain, they hijack your 
mind and they hijack your life.
    That is why an individual's treatment program must address 
not only the individual's drug use, but also help restore all 
aspects of their abilities to function successfully, in their 
families, at work, and in society--what we call whole-person 
treatment. And I can tell you that science is constantly 
improving the tools we have for providing that whole-person 
treatment.
    We are also providing communities with the tools they need 
to prevent drug use in their neighborhoods. This booklet, 
``Preventing Drug Use Among Children and Adolescents,'' is the 
first ever science-based guide to drug abuse prevention. 
Prevention no longer needs to be done based on intuition of 
common sense about what might work. We have science-based 
principles about what will and will not work to prevent drug 
use.

                           prepared statement

    I have given you just a couple of examples, but I hope that 
they show you that these kinds of exciting research and 
research dissemination efforts are moving us all much closer to 
truly understanding the complexity of drug abuse and addiction 
and what to do about them. The time has finally come when we 
truly can replace ideology and intuition with scientific facts 
as the foundation for how we as a country approach this most 
complex and vexing issue.
    I would be delighted to answer any questions you may have, 
Senator.
    Senator Specter. Thank you very much, Dr. Leshner.
    [The statement follows:]

                 Prepared Statement of Dr. Alan Leshner

    Mr. Chairman and Members of the Subcommittee, I am pleased 
to be part of this distinguished panel that you have assembled 
here this morning to share what the science has come to show 
about drug addiction and recovery. This hearing is especially 
timely, given next week's debut of the outstanding five part 
series on Addiction that my co-panelist Bill Moyers and his 
competent staff at National Public Television put together, 
with some technical assistance from the National Institute on 
Drug Abuse (NIDA). It is also timely given the recent release 
of a major study by the Physician Leadership on National Drug 
Policy which conducted an extensive review of the scientific 
literature and concluded that drug addiction treatment is in 
fact very effective. The exhaustive study also concluded that 
drug addiction treatment works just as well as other 
established medical treatments.
    In large part because of the research that NIDA supports, 
we now know that drug abuse is a preventable behavior and that 
drug addiction is a treatable disease. Through NIDA's research 
we know more about abused drugs and the brain than is known 
about almost any other aspect of brain function. New 
technologies and new knowledge have revolutionized our insight 
into the brain. I mean this in the most literal sense. Using 
functional magnetic resonance imaging (fMRI), we have moved 
beyond a single snapshot of a brain high on drugs to being able 
to actually look at the dynamic changes of the brain that occur 
as an individual takes a drug. We can observe the different 
brain changes that occur as a person experiences the ``rush,'' 
the ``high,'' and finally the craving of a commonly abused drug 
like cocaine. This insight has not only increased our overall 
understanding of drug addiction, but has provided us with 
greater knowledge of how to treat addiction.
    Although it can be done, addiction is not a simple disease 
to treat. Addiction is a chronic relapsing disease that results 
from the prolonged effects of drugs on the brain. It can affect 
every aspect of a person's life. This is why an individual's 
treatment program must address not only the individual's drug 
use, but also help restore their abilities to function 
successfully in society. The most effective treatment 
approaches must attend to all of addiction's biological and 
behavioral components.
    It is these kinds of research-based concepts and approaches 
that are most needed by the frontline clinicians who are facing 
the day-to-day realities of treating their patient's drug 
addictions. We know that we cannot just disseminate research 
findings through journal articles in the hopes that a busy 
treatment provider will have time to read, analyze and 
implement a particular finding. That is why we translate these 
findings in a way that is both useful and used by treatment 
providers at every level. Toward this end, NIDA is sponsoring a 
National Conference on Drug Addiction Treatment next month. At 
this conference, NIDA will release the first two in a series of 
treatment manuals developed to help drug treatment 
practitioners provide the best possible care that science has 
to offer. These first two manuals will focus specifically on 
behavioral treatment approaches for treating cocaine addiction. 
All of the manuals will take scientifically-supported 
therapies, and offer detailed guidance on how to implement them 
in real-life practice settings.
    These manuals will be particularly useful for treating 
cocaine addiction, since we do not, yet, have a medication to 
treat this addiction. This remains both a national need and a 
NIDA priority. But we do have encouraging news. We are about to 
launch our first ever large scale multi-center clinical trial 
for a cocaine medication. In designing this trial we are 
capitalizing on a body of current findings that suggest that 
medications consistently work better when they are used in 
combination with behavioral therapies. When we initiate the 
trial in the Fall we will add a standardized behavioral 
component to one of our most promising compounds, selegeline.
    NIDA hopes to expand upon this trial by launching a 
National Drug Treatment Clinical Trial Network to ensure that 
all potential addiction treatments are tested in real life 
settings. Our science has matured to the point where we can 
take a more systematic approach to rapidly and efficiently test 
the effectiveness of behavioral, psychosocial and 
pharmacological treatments in large-scale, multi-site clinical 
trials.
    We do already have many effective addiction treatments in 
our clinical toolbox and countless others that are being 
tested, although admittedly not enough. We do have methadone 
and LAAM (levo-alpha-acetyl-methadol) for opiate or heroin 
addiction, and will be seeking approval for both buprenorphine 
and buprenorphine combined with naloxone in 1998. For tobacco 
addiction, there are several nicotine-replacement therapies, 
such as the patch and gum, and several non-nicotine ones as 
well, such as bupropion (Zyban<Register>) that are readily 
available.
    As with all medical conditions, science will continue to 
provide us with the best hope. It is science that will help us 
develop even more novel approaches to treat addiction. In fact 
it was a series of basic scientific discoveries that pointed us 
to one common reward pathway in the brain where all drugs of 
abuse act. The data now suggest that, independent of a drug's 
initial site of action, every drug--be it nicotine, heroin, 
cocaine, marijuana or amphetamine--appears to increase the 
levels of the neurotransmitter dopamine in the brain pathways 
that control pleasure. It is this change in dopamine that we 
have come to believe is a fundamental characteristic of all 
addictions.
    Dopamine activity is central to one of the country's most 
alarming emerging drug problems, methamphetamine abuse. The use 
of this highly addictive drug, once dominant primarily in the 
Southwest, is spreading rapidly across the country. Just a 
decade ago methamphetamine was confined to relatively limited 
pockets of use in the West. It is now spreading through the 
mid-West and becoming an emergent new problem in previously 
``untouched'' cities.
    This is of particular concern because of recent research 
demonstrating the neurotoxic effects of the drug. In non-human 
primates exposed to methamphetamine doses that are routinely 
used in human abusers, scientists have found profound effects 
on both the brain's dopamine and serotonin neurotransmitter 
systems. These long-lasting neurochemical effects are thought 
to be partly responsible for the severe behavioral 
abnormalities that accompany prolonged use of this drug. To 
avert a potential methamphetamine crisis, we need to develop 
effective medications to treat the addiction, as well as new 
tools such as anti-methamphetamine antibodies to be used by 
emergency room physicians to treat the growing number of 
overdoses.
    We also want to provide the public with the necessary tools 
to play an active role in preventing drug use in their own 
local communities. ``Preventing Drug Use Among Children and 
Adolescents,'' has become one of our most popular publications 
since we debuted it last March. This user-friendly guide of 
principles summarizes knowledge gleaned from over 20 years of 
prevention research. Over 150,000 copies have been circulated 
to communities throughout the country as they evaluate existing 
prevention programs and develop new ones.
    Understanding what makes a person more susceptible to a 
potential drug problem, and progression from first drug 
exposure to developing addiction, will enable us to much more 
effectively target our prevention efforts. Just as important, 
however, is the identification of protective factors, those 
behaviors, environments and activities, that seem to enable 
many people to avoid drug use altogether, or, for those seeking 
treatment, to get right back on track if they falter or 
relapse.
    We are also supporting research that focuses on the special 
needs of older children and adolescents who have been placed in 
juvenile court detention programs, dropped out of school, or 
have become homeless. It is particularly important that we find 
effective prevention and treatment approaches for these special 
populations in light of a 1998 study which found that 13- to 
19-year-olds who have both conduct and drug abuse problems, 
already are meeting standard adult criteria for marijuana 
dependence.
    We are also continuing to study the effects of prenatal 
drug exposure. We are finding that some, though not all, of the 
cohorts of crack-exposed babies now entering elementary and 
middle school may be significantly, although perhaps subtly, 
affected. Because these effects can be subtle and expressed 
only as children develop, long-term follow-up is needed. 
Longitudinal studies will also enable us to examine whether 
prenatally drug-exposed children are more vulnerable, or at 
increased risk for drug abuse in childhood and adolescence.
    As we work to replace ideology about drug abuse and 
addiction with science, we will continue to take our science to 
the true beneficiaries of our research endeavors--the American 
public. We will continue to join with local partners across the 
country to sponsor a series of Town Meetings. Our Town Meeting 
with the citizens of Boston will coincide with the March 29 
premier of the Bill Moyers series on ``Addiction'' that I 
mentioned earlier.
    All of these exciting research and research dissemination 
efforts are moving us all closer to truly understanding the 
complexity of addiction. NIDA will continue to use the most 
sophisticated research equipment and techniques, and seize all 
scientific opportunities that present themselves to ensure that 
no more lives are lost to what is ultimately both a preventable 
and, if not prevented, a treatable disease.
    Thank you once again for inviting me to participate on this 
panel. I will be happy to answer any questions you may have.

                    summary statement of bill moyers

    Senator Specter. We turn now to our next distinguished 
witness, Mr. Bill Moyers, who, along with his wife, Mrs. Judith 
Davison Moyers, first became involved in addiction treatment in 
1989, on a family experience. Mr. Moyers is well known to 
Americans. He is the recipient of some 30 Emmys, the George 
Foster Peabody Award for Political Reporting. His resume would 
take much longer than the time allotted for his presentation, 
so, Mr. Moyers, you have the floor.
    Mr. Bill Moyers. Thank you, Mr. Chairman for this 
opportunity.
    I am a journalist, as you say. And we journalists are known 
to be privileged to explain things we do not understand. And I 
assure you that addiction was something I did not understand 
until it came close to home. Actually, I want to come here this 
morning not as a journalist, but in the spirit of the writer 
and the humorist Robert Benchley, who arrived at Harvard Law 
School, to discover that the final examination in international 
law consisted of one question. And it was this: ``Discuss the 
international abstraction of the protocol of the fisheries 
problem from the point of view of the United States and the 
point of view of Great Britain.''
    Well, Benchley was honest and desperate. So he wrote: ``I 
know nothing of the point of view of the United States in 
regard to the international fisheries problem, and nothing of 
the point of view of Great Britain. I would therefore like to 
discuss the question from the point of view of the fish.'' 
[Laughter.]
    I am just one fish in this great ocean of addiction that is 
the subject of your hearing today. And I speak not as a 
journalist, but as a father. Ten years ago, our oldest son, 
William Cope, plunged into a long ordeal with alcohol and 
drugs. Fortunately for us, it has come to a happy place, and 
our son is doing well. You will hear from him later this 
morning. He is sitting to my right.
    Others are not so lucky. As you will also hear, addiction 
can kill.
    To share what we learned during our family's experience, as 
you said, Judith and I have produced this series, which runs on 
PBS next Sunday evening. I will submit that to the record, as 
well.
    But as the father of a recovering addict, and as a 
journalist reporting on addiction, I am convinced that America 
needs a new metaphor for the war on drugs. When our son's 
addiction took over his life, we did not declare war on him. We 
sought help for him. And the help that mattered, the help that 
made the difference came from people who understood addiction 
to be a treatable disease.
    The sooner that we move from a military to a medical 
metaphor for addiction, the sooner we will see addiction for 
the public health challenge it is, and the sooner our national 
drug policies will be grounded in reality. You will hear this 
said in our series by no less a figure than the White House 
drug czar Gen. Barry McCaffrey.
    I am going to submit my statement to the record, but 
summarize quickly by saying it helped us a great deal when our 
son's life was claimed momentarily by addiction to understand 
that this robust, church-going, outgoing, personable, 
successful student, a 30-year-old journalist, established in 
his own right, was in fact suffering from a progressive and 
debilitating disease that was wearing at the organ of his 
brain.
    That helped me to see the issue not as my father had seen 
another close member of our family, whom he thought suffered 
moral weakness, was a moral coward, who lacked character and 
willpower, when he proved to be an addict. My son does not have 
a weak character. My son is a person of great moral standards. 
My son is someone who is in charge of his life, and has been 
fighting a disease.
    We discovered, when Judith and I went through family 
treatment with him, not only what had happened to him, but what 
he had to do to get well as a recovering moral agent, and what 
we had to do ourselves to heal our own wounds. Families need to 
do this together.
    In fact, a study was released just 2 weeks ago, showing 
that addicts who go through treatment with families have a far 
better chance of making it than those who go it alone.
    Thank you for this opportunity.
    Senator Specter. Thank you.

                summary statement of william cope moyers

    Senator Specter. I would like to turn briefly to your son, 
William Cope Moyers, who works on public policy issues related 
to drug and alcohol addiction in his position as director of 
the Hazelden Foundation.
    Welcome, Mr. Moyers, and the floor is yours.
    Mr. William Cope Moyers. Thank you, Mr. Chairman. And thank 
you, members, for giving us this opportunity. I will keep my 
comments brief. They are submitted for the record.
    I will just say that if my father was the fish, then the 
disease of addiction was the net. And it was a disease which 
captured all of us in 1989, when I hit bottom. But, first, let 
me tell you briefly a couple of things about me.
    I pay property taxes because I own a home, and State and 
Federal income taxes because I work for a living. I invest my 
volunteer time trying to help my community. I serve on a board 
of four nonprofit organizations in Minnesota. As the father of 
three young children, I do my best, along with my wife, 
Allison, who is here today, to raise them in a healthy and 
caring environment. In the winter, I shovel the snow off my 
sidewalk, and in the summer I mow my own yard.
    On the surface, all these things may seem unremarkable to 
most of society. After all, that is what society expects of 
each of us--to do what we can for our communities.
    But once upon a time, I could not do any of these things. I 
was an alcoholic and drug addict. And none of these things 
would be possible today had I not been helped in overcoming the 
powerful disease of addiction.
    In summary, I will tell you that for years I struggled with 
a baffling inability to just say ``no.'' I started using, 
innocently, marijuana when I was 15 years old, in 1975. And by 
the time I was 30, I was at bottom, using hard drugs and hard 
alcohol.
    I know there is a risk in publicly revealing my addiction. 
Society does not like addicts. Even though the AMA defined 
addiction as a disease more than 40 years ago, people still 
believe it is a matter of choice or the result of weak moral 
character. I assure you it is not.
    And let me just tell you that it is time that people like 
me stand up and speak out, and be counted among the millions of 
Americans who have overcome this disease and are leading 
healthy and productive lives today. Otherwise, lawmakers like 
yourself, who ignore constituents they cannot see, will 
continue to make policies that do not address the problem as it 
relates to people like me.
    It is time that health insurance plans, policymakers and 
society at large treat addicted people fairly.
    Let me say in closing that Hazelden recognizes that public 
policies will change only when recovering people like me stand 
up and speak out, because we must put an accurate face on 
addiction and an accurate face on recovery. Let me just tell 
you that I grew up in the middle-class suburbs. I was raised by 
two parents--my father here, who gave me all the emotional, 
moral, financial, and spiritual support I needed. I graduated 
from college. And still, my brain was hijacked by addiction.

                           prepared statement

    The message is clear: Millions of people like me can and do 
get well when we have access to good treatment. When we recover 
from this disease, we pay our taxes, we raise our children and 
we work. We must also remind policymakers that we do something 
else, too. We vote.
    Thank you. [Applause.]
    Senator Specter. Thank you very much, Mr. Moyers.
    [The statement follows:]

               Prepared Statement of William Cope Moyers

    William Cope Moyers is director of public policy for 
Hazelden, based in Minnesota. He grew up in Garden City and was 
a Newsday reporter from 1986-1989. His father Journalist Bill 
Moyers, has produced a 5-part television series called ``Moyers 
on Addiction: Close to Home.'' It will be broadcast on public 
television on March 29-31.
    Let me tell you a few things about me.
    I pay property taxes because I own a home, and state and 
federal income taxes because I work for a living.
    I invest my volunteer time trying to help my community; I 
serve on the boards of four non-profit organizations in 
Minnesota.
    As the father of three young children, I do my best, with 
my wife Allison, to raise them in a caring and healthy 
environment.
    In the winter I shovel snow off of my sidewalk. In the 
summer I mow my yard.
    On the surface these may seem unremarkable. After all, 
society expects each of us to work, pay taxes, care for our 
families, and serve the community.
    But once upon a time I couldn't do any of these things. I 
was an alcoholic and drug addict. And none of them would be 
possible for me today if I had not been helped in overcoming 
tire powerful disease of addiction.
    For years I struggled on my own to master a baffling 
inability to ``Just Say No.'' It started not long after I 
innocently experimented with marijuana in 1975, when I was a 
teenager. Soon I was getting drunk on weekends in college. 
Alcohol turned to hard drug use. By the time I was 30 I 
couldn't do anything productive. I could no longer take care of 
myself.
    An unexpected journey to Minnesota started a slow 
transformation. In 1989, I went there from New York for 
treatment at Hazelden. There I learned that I was sick with a 
disease, an illness I did not ask for and cannot beat on my 
own. One I must learn to live with, or die from.
    A near-death experience a few years later, when I briefly 
tried drugs again after several years of sobriety, finally 
pushed me to a bottom that serves as the foundation of my 
recovery today. And for my ability to do everything from pay 
taxes to be a parent to write this article.
    There is a risk in publicly revealing one's addiction. 
Society doesn't like addicts. Even though the American Medical 
Association defined addiction as a disease more than 40 years 
ago, many people still believe it is a matter of choice, or the 
result of weak moral character.
    But the time has come for addicted people like me to stand 
up, speak out and be counted among the millions of Americans 
who have overcome this disease and are leading healthy and 
productive lives today. Otherwise lawmakers at the state 
capitals and in Washington, who ignore constituents they cannot 
see, will continue to make policies divorced from reality.
    Take health care coverage for addiction. Many private 
health insurance plans refuse to cover treatment for alcoholism 
and drug dependence like they do for hypertension, diabetes and 
asthma, all major chronic illnesses. This is unfair. How 
serious is this inequity? Last year Hazelden extended about $4 
million in financial aid to people so that they could either 
get into treatment, or stay there long enough to get well. And 
most of them were working people who had health insurance.
    Rep. Jim Ramstad (R-Minnesota) and Sen. Paul Wellstone (D-
Minnesota) have sponsored the Substance Abuse Treatment Parity 
Act to end this discrimination. It would require private health 
insurance plans that already cover substance abuse treatment to 
do so on par with other major illnesses. Not only is this fair. 
It makes sense, too. Drug and alcohol abuse contributes to 
everything from crime to lost worker productivity to broken 
families and spiraling health care costs.
    Yet neither the Clinton Administration nor the Republican 
leadership in Congress cited this legislation when they 
recently rolled-out new plans to fight America's so-called 
``War on Drugs.'' The federal government is ready to spend 
billions upon billions of dollars in this fight. Yet opponents 
to parity, including many members of Congress, insurance 
companies and business groups, loudly protest because it will 
cause premiums to rise by pennies a day, or about $1.35 a month 
per member.
    Political unreality will change only when recovering people 
like me stand up and speak out. We must put an accurate face on 
addiction; it is not just a problem of inner-city poor people, 
or those who suffer ``moral weakness.'' I grew up in the 
middle-class suburbs, was raised by two parents who gave me all 
the emotional, financial and spiritual support I needed, 
graduated from college and held good jobs. And still my brain 
was hijacked by alcohol and drugs.
    The message is clear: people like me can get well, when we 
have access to good treatment. When we recover from this 
disease, we pay our taxes, raise children, and work. We must 
remind policymakers that we do something else too. We vote.

                     remarks of senator max cleland

    Senator Specter. We will recognize Senator Max Cleland.
    Senator Cleland. I just am glad to be here to see this 
table of courage. I wanted to come here and especially support 
my dear friend, Carroll O'Connor. I got to know him and his 
family when he was filming ``In the Heat of the Night,'' in 
Georgia, for some 7 years. I got to know his lovely wife, 
Nancy, and I got to know his marvelous son, Hugh.
    And I have seen the terrible price that can be exacted on a 
family by the menace of drug addiction. So I wanted to come 
here and support my dear friend, Carroll, in telling his story. 
He has an incredible story to tell, one that is being 
replicated, unfortunately, throughout America.
    It is also marvelous to be with my friends, Bill Moyers, 
and Buzz Aldrin. These are incredible people, and they have got 
an incredible story to tell.
    Thank you, Mr. Chairman.
    Senator Specter. Thank you very much, Senator Cleland.

                 summary statement of carroll o'connor

    Senator Specter. We now have the extraordinary opportunity 
to hear one of America's greatest television, film and Broadway 
actors, Carroll O'Connor, who comes to the witness table due to 
some of his own personal experience in this line. Not only is 
he a voter, but he has the potential to move a lot of other 
voters, to put pressure on public policy.
    The floor is yours, Mr. O'Connor.
    Mr. O'Connor. Well, Senator, I do not want to tell you a 
sad story or personal experience, but I think we all owe each 
other a vote of congratulations for providing a society so 
generous, so open and so encouraging to the criminal retailers 
of drugs, known as the pushers. We have made it possible, as in 
no other country in the world, for the pushers to operate 
virtually with freedom.
    I suppose, in the name of civil liberties, we make it 
impossible for the cops to catch them. But, of course, they are 
all guilty of some other felonies that we do not see. My 
favorite pusher on the coast, you know, had a little tax 
problem. And God knows where these pushers have the BMW's that 
they drive around the schools in, living in the upscale 
condominiums. We allow it to happen.
    We do not do anything about it. And I am after some 
legislation, Senator. For instance, the only agency that is 
allowed to ask questions about our taxes is the IRS. And that 
is the last agency we want asking us about it, by the way. But 
the police have no authority. Nobody else has any authority to 
ask somebody who is obviously dodging his taxes and has not 
made a return. Pushers cannot make returns. They do not have 
time.
    So that anybody of any age, any color--equal opportunities 
in this game--from kids up to old-timers, can make $100, $500, 
$1,000 a day, tax free, Senators, tax free, and live very, very 
well. Better than most Americans. With no responsibilities to 
their Nation whatsoever.
    In fact, they are the enemies that we are supposed to be 
making the war against. And we are about to surrender. You hear 
people all the time, What can we do; there will always be war. 
And get the big guys, get the Government. Well, the Government 
does pretty well interdicting the big shippers of drugs into 
this country. They make busts all the time. And big wholesalers 
in the cities are busted. There was one up in New York the 
other day when I was there. They were doing $125,000 a day 
worth of business. And they are not the biggest wholesaler. But 
that is considerable.
    But the little pusher can make all this money. It is the 
easiest way in the world to make a fast buck. And we here in 
the United States, we are encouraging it and turning away from 
it.
    Now, there is no reason why, on probable cause, a police 
officer anywhere, having been told, that is a pusher, that guy 
is preying on my apartment house and my school, why a police 
officer cannot go over and say, Henry, where did you get that 
BMW, let me see the ownership, let me see your driver's 
license. And, by the way, what is your tax number? Did you file 
a return? Did the IRS send you a number that you can tell me so 
I can find out if you are a decent citizen?
    And we are going to nail a lot of them that way. We already 
have a civil liabilities law in nine States--and I am proud 
that I helped get it through--where victims can sue pusher's in 
relative neighborhoods, as they sue the tobacco industry today. 
The other day, in Detroit, there was a $2 million judgment.
    And this is going to show pushers that they cannot go out 
there with impunity, and live high on the hog in this Nation of 
ours without incurring some danger. When those guys are sued, 
the courts will take hold of all that property until the suit 
is determined.
    But I want them picked up for tax evasion. And I want you 
seriously to consider legislation--I could go into details that 
we do not have time for now--of a plan. But, you know, if you 
are fighting a war--we used to be asked for draft cards, 
because everyone is supposed to be doing something for the 
war--being in the service or you had a draft card to say why 
you were not.
    Now, I am not trying to impose I.D. cards on people, 
although personally I am not against it--they are all over the 
world except here--for some screwy notion that this is going to 
deprive us of our liberties. And most of us in this room have 
been fingerprinted over and over. The Government knows all 
about us, for one reason or another. We have been in the 
service. We are not afraid of I.D. cards. But forget about it. 
That is another thing.

                           prepared statement

    But we cannot be afraid, in the name of some really 
abstruse idea of civil liberties, to handcuff the police. They 
cannot do anything against these pushers, and the pushers are 
destroying the country, Senator.
    Thank you.
    [The statement follows:]

                 Prepared Statement of Carroll O'Connor

    I should like to remind the Senators that the salesman of 
hard deadly drugs is the most highly rewarded untaxed 
individual entrepreneur in the country. He, the pusher in the 
street, is our favorite outlaw. He lives well in this rich 
country, and he lives free. And we let him! We do not ask him, 
nor are we allowed to ask him, whether he's paying his way--
whether he has filed a tax return. Only the IRS can ask him, 
but if he has not filed a return--and of course he has not-the 
IRS doesn't know who or where he is. No employer reports his 
income and his withheld tax. He has no employer. He has bosses 
and partners, but they don't file either.
    What an enterprise! In unpatrolled parks, playgrounds and 
ghetto streets he can deal openly No overhead. His private 
place of business is the hallway, the parked car, the cab, his 
home or his victim's home. The chances of catching him dealing 
are next to nil.
    I should like to ask the honorable gentlemen whether they 
really think we are fighting a war on drugs, or blowing hot 
air. If it is really a war, we are losing it most stupidly. The 
enemy is laughing at us. It's as if he were ripping away our 
self-respect, while his palpable effect upon his country is 
boundless and deadly.
    I should like in brief to suggest a way in which, upon 
probably cause, any police officer could ask to see a suspect's 
tax-receipt card, or to be told a tax-receipt number, or in 
case of non-cooperation, to be able there and then to enter a 
detained person's name immediately into a computer bank and 
discover whether or not he is confronting a probable felon.
    I have not overlooked the civil-liberties implications of 
this, but I would keep in mind that in time of war and national 
danger we do resort to such things as draft cards. We are 
looking at war and national danger right now
    I look forward to talking with the senators. I broached 
this matter informally a year ago to Senators Hatch, Cleland, 
and Bumpers.

                           drug grand juries

    Senator Specter. Well, thank you very much, Mr. O'Connor. 
You put your finger--really, your whole hand--on a big, big 
problem. This is a problem I have personally wrestled with as 
district attorney of Philadelphia, drug grand juries. As a 
Senator, legislation on international drug addiction, trying to 
beef up the forces there, you may be exactly right.
    Al Capone was put away on tax charges. Maybe we can have 
the Internal Revenue Service do something useful, and go after 
pushers. We will take a close look.

                summary statement of mac kenzie phillips

    We turn now to Ms. Mackenzie Phillips. She started her 
singing career in the feature film ``American Graffiti.'' She 
was the star of ``One Day at a Time.'' We welcome you here, Ms. 
Phillips, and look forward to your testimony from your own 
personal experiences.
    Ms. Phillips. Thank you very much.
    It is really an honor to be here. And the way you 
introduced me, certainly those are things that pertain to who I 
am. But today what pertains most to who I am is that I am a 
recovering alcoholic and drug addict. And I want you to look at 
me. Because this is one of the accurate faces of addiction and 
alcoholism.
    I believe that in this country there is a misconception of 
who the alcoholic is. I know that when I had the opportunity to 
go to treatment and learn about alcoholism and addiction and 
learn about myself, my idea of an alcoholic was a person with a 
paper bag and a big baggy coat. I thought that alcoholics were 
bums. And I believe that a lot of people in this country still 
believe that the face of alcoholism is on the street and that 
they are bums.
    Alcoholism and drug addiction is an equal opportunity 
employer. I hear a lot of things about how Hollywood is the 
hotbed of drug addiction. We just happen to be a little more 
visible. That does not mean that just because recently a 
gentleman who happens to be a movie star is spending 90 days in 
prison, does not mean that another gentleman in Idaho is not 
doing the same thing. This problem is all pervasive, and it 
touches all parts of society, all across the board.
    And without the opportunity to receive treatment, I would 
not be here today. Addiction is a disease of denial. Addiction 
is a progressive disease. It is something that is insidious. 
And I was unable to look at my behavior without the help of 
health care, and mental health care, professionals, to help 
show me the way, how to stay sober.
    My belief is that addiction should be treated like other 
diseases. Addicts and alcoholics should not be discriminated 
against. Insurance plans should not impose barriers to 
treatment.
    Since getting sober, I have gone from being an unemployable 
person to working all the time. I have gone from being an 
irresponsible and unavailable mother to being an active and 
present and loving parent for my 11-year-old son. And today I 
am able to convey the message of recovery.
    Sober alcoholics, alcoholics in general, are high 
achievers. By cutting back funding for treatment of 
adolescents, we are effectively depriving our society of the 
gifts of these wonderful, talented young people in the years to 
come.
    And I would like to thank you for your time. [Applause.]
    Senator Specter. Thank you very much, Ms. Phillips for 
sharing that personal experience.

                summary statement of john t. schwarzlose

    Our final witness is Mr. John T. Schwarzlose, president of 
the Betty Ford Center, a very unique center, which has provided 
approximately 27,000 men, women and children with substance 
abuse treatment.
    Welcome, and the floor is yours.
    Mr. Schwarzlose. Thank you, Mr. Chairman.
    Mr. Chairman and distinguished subcommittee members, my 
written statement details what we believe are some of the key 
ingredients necessary for the formulation of public policy that 
effectively addresses the essence of the alcoholism and drug 
addiction problem. I have included studies and statistics which 
clearly show how effective treatment is.
    What I would like to do, though, is just take a minute and 
read an excerpt from a letter that Mrs. Ford recently received:

    Dear Mrs. Ford: My daughter, Janet, was 4-years-old when I 
entered the Betty Ford Center, on February 5, 1993. She started 
kindergarten the previous fall, but was expelled for excessive 
absences. And I was told that she likely had a learning 
disability. The year before I entered the program, my daughter 
had nine asthma attacks, five severe cold and flu attacks, and 
countless headaches. Doctors also said she was anemic and a 
very sickly child.
    The day I completed the program, I rushed to her side in 
the hospital. She was worse than ever. She emerged from this 
sickness like a lightning bolt, and looked at me and said, Do 
you really love me, mommy?
    Janet is 8 now. She is an honor roll student in the third 
grade, and has received perfect attendance 3 years in a row. 
Her asthma is gone. No more flus, colds, headaches. Doctors 
simply have no way of diagnosing a broken heart.

    This mother also sent a letter from the daughter herself, 
who says:
    ``My mommy stopped drugs and booze 4 years ago, but I still 
do not like to think about when she was doing drugs and booze, 
because it makes my tummy hurt.''
    Well, Mr. Chairman, there are a lot of children whose 
tummies are hurting as they go to bed tonight in the United 
States. Four years ago this month, Mrs. Ford appeared in front 
of the full Labor and Health and Human Services Committee. Mrs. 
Ford and Mrs. Rosalyn Carter challenged you not to agree to set 
arbitrary, predetermined limits on treatment for mental health 
and alcoholism and addiction.
    I applaud the fact that you supported these two wonderful 
First Ladies. But I need to inform you that limited access to 
treatment for alcoholism and addiction is a national crisis. 
Today, because her health insurance canceled their contract 
with Betty Ford Center, Janet, the woman who wrote the letter, 
would probably not be able to access treatment. Today the door 
is slamming in the face of families all over the United States 
because of limits being set.

                           prepared statement

    An important step for Congress is to pass the Substance 
Abuse Treatment Parity Act. This bill guarantees what is fair: 
to treat addiction like any other disease. This legislation 
does not mandate that health insurers offer substance abuse 
treatment benefits, but it does prohibit health plans from 
placing discriminatory caps, financial requirements or other 
restrictions on treatment that are different from any other 
forms of health care treatment.
    We hope that Congress will have the courage to move this 
important legislation forward. Please join us in the fight for 
fairness.
    Thank you very much. [Applause.]
    [The statement follows:]
               Prepared Statement of John T. Schwarzlose
    Mr. Chairman and members of the subcommittee, good morning. My name 
is John Schwarzlose, President of the Betty Ford Center. I would like 
to thank you for the opportunity to testify before your subcommittee. I 
am testifying today on behalf of the Partnership for Recovery and the 
National Association of Addiction Treatment Providers (NAATP). Most 
importantly, I am here representing Mrs. Betty Ford, the Founder and 
Chairman of the Betty Ford Center, who for the past 16 years has been 
an inspiration and guiding light to millions of Americans seeking 
recovery from the disease of chemical dependency. The Partnership for 
Recovery is a coalition of non-profit alcohol and drug treatment 
providers that includes three of the nation's leading treatment 
centers: the Betty Ford Center, Hazelden Foundation and Valley Hope 
Association, collectively representing 250,000 individuals who 
completed treatment for alcohol or drug addictions.
    The Partnership for Recovery and NAATP are dedicated to improving 
access to professional treatment for all Americans suffering from the 
disease of addiction. Addiction is a chronic, relapsing brain disease 
that is treatable. We are committed to the pursuit of equitable and 
non-discriminatory treatment for those individuals and/or family 
members with the disease of chemical dependency. Members of the 
Partnership for Recovery hope to broaden the public's understanding of 
the disease and create an awareness of the value of professional 
treatment. We share a common philosophy and more than 100 years of 
treatment experience based on the 12-Step model with an emphasis on 
family involvement and individual recovery.
    I am also the past Chairman of National Association of Addiction 
Treatment Providers, the national trade association representing over 
350 leading addiction treatment providers in the country. NAATP 
membership reflects the entire spectrum of chemical dependency 
treatment programs, including not-for-profit, proprietary inpatient, 
residential, and outpatient services in hospital-based and independent 
settings.
    Mr. Chairman, we are here today to congratulate you on your 
leadership on addiction and recovery issues. We greatly appreciate the 
stewardship, courage, and cooperation which you and the members of your 
subcommittee have provided to bring these important, but often ignored, 
issues to the forefront of our nation's public policy debate.
The impact of addiction on society
    Each year, untreated drug and alcohol addiction cost $700 for each 
American, in health care, criminal justice, social, and lost 
productivity in the workplace. (Institute for Health Policy, Brandeis 
University, 1993). The statistics are staggering:
  --Every year, substance abuse cost businesses an estimated $100 
        billion in increased absenteeism, accidents, medical liability, 
        and health care costs. (Drug Strategies, 1996);
  --Three out of four adults who use illicit drugs are employed. 
        (National Household Survey on Drug Abuse, 1994);
  --Six out of ten workers know someone who has gone to work under the 
        influence of alcohol or drugs. (Hazelden Foundation, 1996); and
  --Before treatment, about 37 percent of patients reported they had 
        been arrested. After treatment, that number dropped to about 6 
        percent. (Minnesota Department of Human Services, Chemical 
        Dependency Unit, 1996).
    Alcoholism and drug addiction are painful, private struggles with 
staggering public costs. We know that the direct and indirect costs of 
alcoholism alone in this country are estimated at $100 billion each 
year. Assuring access to treatment will not only combat this insidious 
disease--it will save health care dollars in the long run. Treatment 
helps people stay healthier longer and saves the health care system 
money. A Chevron Corporation study found that for every $1 spent on 
treatment, nearly $10 is saved.
    Professional treatment for addiction has been available in the 
United States since 1949--yet only one in four people who need 
addiction treatment in our country actually receive it. (Institute for 
Health Policy, Brandeis University, Substance Abuse: The Nation's 
Number One Health Problem 1993) Expenditures for treatment are less 
that one percent (1 percent) of the $200 billion annual price tag to 
our nation for alcohol and other drug dependencies.
    A one-year follow up study of adults who completed inpatient 
alcoholism treatment showed a dramatic reduction in hospital use when 
compared to the year before treatment. These included a 50-percent 
reduction for medical services, a 60-percent reduction for psychiatric 
services, a 30-percent reduction in emergency psychiatric admissions, 
and a 75-percent reduction in admissions for detoxification services. 
We know treatment works because, on average, 75 percent of the 
individuals who successfully complete a treatment program remain drug 
free six months later and 63 percent are abstinent or substance free 
one year later. (Harrison, P.A. and Hoffman, N.G.; Adult Inpatient 
Completers One Year Later)
Public policy must recognize addiction as a chronic relapsing disease
    How can we explain the ravishes of this problem? Can it be a simple 
matter of willful behavior or the results of a bad habit? How do we 
explain the prevalence of this problem even in the face of repeated 
serious personal and social consequences?
    It is a significant public health issue that policymakers in this 
country begin to acknowledge that alcoholism and drug dependence is not 
a matter of will power nor a deeply ingrained habit of slovenly, 
excessive consumption. To develop better public policy, we believe that 
policymakers must adopt the fundamental tenet that alcohol and drug 
dependence is a physical illness. The disease is neither the end result 
nor symptom of another disorder, but a primary, progressive, chronic, 
relapsing illness. Rather than a singular personality disorder or a 
negative learned behavior, alcohol and drug dependence involves the 
biological fabric of the individual that eventually impacts every phase 
of the afflicted person's life. As a result, understanding and 
accepting addiction as a disease will lead to public policy that 
encompasses the social, psychological, spiritual, and biological 
dimensions of alcohol and drug dependence. Born from the clinical 
efforts of those who treated alcoholism and those who suffered from it, 
acceptance of this affliction as disease, represents a combination of 
grassroots practicality and scientific endeavor. We now have the basic 
scientific underpinning now to provide credible scientific evidence 
that addiction is a ``brain disease that markedly impairs a person's 
ability to control his or her drug seeking behavior.''
The Substance Abuse Treatment Parity Act is an important first step
    Once the federal government moves public policy in the direction of 
treating addiction as a disease that has devastating public health 
consequences, the case for providing treatment for the disease becomes 
evident. We believe that the Substance Abuse Treatment Parity Act (S. 
1147/H.R. 2409) is landmark legislation that takes an important first 
step toward giving people suffering from the disease of alcoholism and 
drug addiction increased access to treatment. This legislation does not 
mandate that health insurers offer substance abuse treatment benefits. 
It does prohibit health plans from placing discriminatory caps, 
financial requirements or other restrictions on treatment that are 
different from other medical and surgical services.
    S. 1147 and H.R. 2409 will help eliminate barriers to treatment--
without significantly increasing health care premiums. A recent 
Milliman and Robertson study reported that full and complete substance 
abuse treatment parity would increase per capita health insurance 
premiums by at most only one-half of one percent (0.5 percent) or a 
$1.35 per member, per month. This does not take into consideration the 
obvious savings that will result from treatment.
    Unfortunately, the stigma associated with this disease is subtle 
and often difficult to document. Recently, a survey by Peter Hart and 
Associates captured the essence of the stigma. While over 50 percent of 
the people surveyed believed addiction is a disease, 52-68 percent 
believe if addicts really wanted to, they could stop using on their 
own.
What are the key components of an effective treatment program?
    As leaders in the field, the Partnership for Recovery believes that 
we have an obligation to provide information on the 12-Step model, the 
most effective model of treatment for our patients. The Minnesota Model 
is characterized by the use of the 12-Step philosophy of Alcoholics 
Anonymous as a foundation for therapeutic change in peoples' lives. The 
treatment goal is total abstinence from mood-altering substances and 
improved quality of life. While this model was developed for 
residential settings, we believe it can be easily adopted in community, 
correctional, or outpatient settings. At our Centers, we often see 
success rates (that is abstinence from alcohol and other drugs for one 
year after treatment) ranging from 51-75 percent using this model of 
treatment. It is important to note that no one model of treatment is 
appropriate for all patients. We believe that an individualized 
continuum of care is an important factor in making recovery last for 
the addicted person.
    Key Components of the 12-Step Model Include:
    1. Assessment;
    2. Development of a individualized plan of care;
    3. Execution of the treatment plan;
    4. Specific continuing care plan (including halfway house, group, 
        or individual therapy and AA or NA attendance); and
    5. Post treatment services.
    Post Treatment services or continuing care, increase the quality of 
recovery by helping to prevent relapse. Based on variability of 
severity, continuing care options are individually prescribed. One-to-
one counseling and referral to a 12-Step self-help support group is 
frequently recommended for those individuals with supportive family and 
social environments, employment, and relatively successful treatment 
response.
    The data is also compelling that longer lengths of stay yield 
better outcomes. For example, a 1993 study published by McLellan, 
Grisson, Brill, Durell, Metzger and O'Brien reported outcomes of 
patients from four private treatment centers, two inpatient and two 
outpatient. While the programs varied somewhat in program 
characteristics, all four programs were based on the 12 Steps of 
Alcoholics Anonymous, had a goal of abstinence, and utilized a 
multidisciplinary team to deliver services. Two inpatient programs 
yielded an average abstinence rate of 71 percent, while the two 
outpatient programs averaged an abstinence rate of 48 percent.
    Addiction is treatable and the treatment does work. There are 
numerous other national studies whose data chronicle the effectiveness 
of treatment, the cost savings it affords the workplace, and the life 
saving and transforming potential it offers individuals and family 
members. I have included several of those as attachments to my 
testimony. There are literally hundreds of thousands of people living 
new lives in recovery across the United States today.
Conclusion
    Mr. Chairman, momentum is building for the nation to take a public 
health approach to addiction. We believe that S. 1147 and H.R. 2409 are 
a start in the right direction. Congress has the opportunity to take 
this first step, and move this legislation forward to solve this public 
health crisis before another generation is lost to the disease of drug 
and alcohol addiction. We ask you to join us in the Fight for Fairness.
    Thank you very much, Mr. Chairman, for allowing us to share our 
views on addiction, recovery and treatment issues with you. The 
Partnership for Recovery, NAATP and I look forward to working with you 
and your colleagues on these issues in the months ahead. I would be 
happy to take any questions.

                           corporate america

    Senator Specter. Thank you very much, Mr. Schwarzlose.
    We will move now to just 4-minute rounds for the Senators 
who are on this subcommittee.
    Mr. Hafer, I begin with your statement about what your 
company, GPU, has done in aiding this battle. I think 
recognition by corporate America is a key factor, with its 
resources, to identify the problem and help their own 
employees. We would be interested to hear from you on an 
elaboration upon what your company is doing in this regard.
    Mr. Hafer. Thank you very much. And thank you for those 
kind words.
    Our company has done a great deal of research into this 
disease. We have adopted a very strong and firm policy about 
drug possession and use and alcohol possession and use. It is 
strictly forbidden on company property at any time or by anyone 
on company business anywhere else. We have also adopted a 
policy that includes the treatment for chemical dependency in 
our medical care plans. And we encourage people to seek that 
treatment, be it for themselves or their family members. And as 
you have heard so many times----
    Senator Specter. Does your medical plan not exclude 
treatment for drug and alcohol dependency?
    Mr. Hafer. No, sir; it does not exclude it.
    And we are convinced, as I said in my statement, that that 
is not only the right thing to do from a human point of view, 
from a compassionate perspective, it just makes good business 
sense, as well.
    Senator Specter. Dr. Aldrin, I know time limitations 
prevented your full statement. I would be, and the subcommittee 
would be, interested to hear from you, as a national hero, the 
first man on the Moon. You have stated that you have almost 20 
years as a recovered alcoholic.
    Mr. Aldrin. That is correct, sir.
    Senator Specter. I believe people would be interested to 
hear a little more about that, as an inspiration or as a 
guidepost or as a model as to what someone in your position can 
do. You walked on the Moon in 1969. If the chronology is a 
recovered addict for almost 20 years, it would put it at 1978. 
What happened in between? And how did you lick the problem?
    Mr. Aldrin. I believe that the structure of my life was 
very tight, in going to the military academy and then the 
military, in the Air Force and combat. And following that, I 
was with NASA. And I was propelled into a position of celebrity 
status. Then I elected, after returning to the Air Force, to 
write a story about my experiences.
    And I fell into a very unstructured life. And I was not 
sure what my purposes were. I had been led into very lofty 
situations. And I believe that the genetic tendencies that 
caused my mother to commit suicide and caused my father's 
career to be somewhat limited by the use of alcohol--and that 
occurred in those time periods before there was the kind of 
recoveries that we have today. And I feel like I was very 
fortunate in being in the right place at the right time to get 
into the Astronaut Program.
    But I was also in the State of California, that was very 
active in assisting people who could recognize that they had a 
problem, not because I recognized it, but because other people 
were pointing that out to me. And I went through a variety of 
treatments, from VA's to hospitals in Santa Monica, to several 
recovery facilities, the Navy recovery facility in Long Beach 
and of course the fellowship programs.
    Without a doubt, that challenge to me was the most 
significant challenge of my life. Yet, I believe that the 
results of recovery have been the most satisfying and the most 
rewarding to me. And all I can say is that it is because of the 
availability of treatment facilities. And it is not that I was 
able to do this easily the first time. You must know that I am 
a very strong-willed person, and I am very persistent in what I 
am doing today, but that was of no avail.
    It took time and it took many exposures. Not one treatment 
would have been adequate. There is no doubt in my mind, without 
the facilities that were available to me at that time, and the 
willingness that I had, that I would not be here. I would not 
be alive at this point.
    Senator Specter. Well, thank you very much, Dr. Aldrin, for 
sharing your views and experiences with this panel, this 
audience, and those who have a broader viewership on 
television, C-SPAN II.
    Senator Bumpers, a member of the panel.
    Senator Bumpers. Mr. Chairman, let me thank you for 
convening this most impressive hearing this morning. And I say 
to all of our panel that this is my 24th year in the Senate, 
and I do not know when I have ever heard more eloquent and 
compelling testimony. It was extremely moving.
    I regret that the time constraints are so harsh on your 
testimony, as well as the questioning round. But, nevertheless, 
living with that, I would address this question to William Cope 
Moyers, to Ms. Colvin and to Ms. Phillips. As a recovering 
nicotine addict, I have some microscopic understanding of what 
drugs do to people. But I also remember my children pounding on 
me daily about the horrible odor, the filthy habit, and nothing 
impressed me.
    And I am reluctant to tell this story. But I remember, in 
1991, the now President and I, when he was Governor of 
Arkansas, were riding in the back of a convertible in a parade. 
And we were talking politics. And all of a sudden I put my 
tongue in the top of my mouth, and I felt a node. And I am sure 
that if somebody would have had a camera, I turned ashen white. 
It terrified me and petrified me. And I never smoked another 
cigar. That is when I quit.
    Now, drugs, I know--a drug is a drug--but my question is 
this: Why is it that my children and friends had no impact on 
me whatever? What are the magic words that somebody has to use 
to convince you that you are on a hopeless course? Some of you 
have supporting parents, as William Cope Moyers did, and 
friends and so on, who I know do everything in the world to 
help you. Do these people, most of the time, just have to hit 
what we call rock bottom before they are willing to deal with 
the problem?
    Let me just start with you, Ms. Colvin.
    Ms. Colvin. Cigarettes are horrible. It is not a 
microscopic experience with drug addiction. I still 
occasionally indulge in a cigarette, and it plagues me. 
Nicotine addiction is really powerful.
    Yes; it is true, you can beg someone. There are many, many 
support groups for the loved ones of addicts, precisely because 
one's intuition is to want to convince them of the 
ridiculousness of what they are engaged in. And you think if 
you can say the magic words, or reason with them, that indeed 
they will get it. And nothing could be further from the truth. 
There are no magic words.
    And what loved ones of addicts generally have to learn to 
do is let go of them and let them reach that bottom. Now, there 
are some thoughts as to how far that bottom can be raised up by 
a great deal of public awareness and letting people know what 
addiction is all about--that there is help, that they have 
choices. But, in my experience, that choice must come from the 
addict. And the way in which the family members--and I am sure 
the Moyers can speak a lot about this--approach it is 
certainly, certainly valuable, but can only go so far.
    Senator Bumpers. Mr. Chairman, can we allow the other two 
witnesses to answer the question?
    Senator Specter. Yes; of course.
    Senator Bumpers. Ms. Mackenzie Phillips.
    Ms. Phillips. Thank you.
    For me, just like for Shawn, no amount of cajoling by 
people who loved me, people who employed me--I mean, I was 
fired repeatedly because of my addiction and my alcoholism. I 
held a belief inside of myself that yes, I was aware that there 
are people who were in recovery, but that it was not available 
to me, that I was meant to die that way. Because alcoholism, 
yes, it is an allergy of the body, but it is also an obsession 
of the mind. I was obsessed with the idea of my using. I felt 
that it completed me.
    It, retrospectively, 6\1/2\ years clean and sober, I see 
that my need was a spiritual need, that there was an empty hole 
inside of me that I was trying to fill with alcohol and drugs. 
I could not see the problem. I could not see that I was hurting 
everyone around me. And I did not want to stop until I wanted 
to.
    You see, I did not realize that I did not have to live that 
way anymore, until the moment that I realized it. You see, it 
is a paradox. I had a moment of clarity when I hit my bottom. 
And I saw nothing good coming, except for more of the same. And 
in that moment I was able to pick up the phone and call for 
help and get into a detox and go from there to treatment. And 
that was January 1992.
    So it is very difficult to try and convince an alcoholic 
that he needs to get sober. It is very, very difficult.
    Thank you.
    Senator Specter. Mr. Moyers.
    Mr. William Cope Moyers. Thank you, Mr. Chairman.
    Senator, I will keep it brief. My parents loved me. My 
wife, Allison, who is behind me, has been sober for 9 years; 
she loved me. No amount of love and no amount of commitment was 
going to do for me what I needed done for the simple fact that 
I did not believe at first that I had a disease. I thought if I 
just changed my thinking, if I just changed my circumstance, 
then I would be OK.
    And my moment of clarity came when I realized that I could 
not fight this anymore by myself, that I needed help. I needed 
treatment three times, treatment twice at Hazelden and once at 
Ridgeview, in Atlanta. I had years of sobriety in there, and I 
forgot what it was. That meant taking care of myself.
    When I finally said, You know what, William Cope Moyers, 
you cannot do this by yourself, so stop trying, is when I got 
myself into treatment that worked for me. Had I not gotten that 
opportunity several times, there is no question--as Dr. Aldrin 
said--there is no question in my mind that I would be stone 
dead today, no matter how much my folks loved me. My father is 
an ordained Southern Baptist minister. I grew up with a 
wonderful concept of God. My mother was always there for me. I 
got a wife in recovery.
    And, you know what, I just had to stop doing it my way and 
listen to what other people, who had been there before me, had 
done to succeed. And that is the bottom line.
    Senator Specter. Thank you very much, Mr. Moyers.
    Congressman Ramstad and Senator Wellstone are not on the 
panel, but if you would care to make a brief, concluding 
statement, Congressman Ramstad, we would welcome that.
    Mr. Ramstad. Thank you very much, Mr. Chairman.
    As a humble House Member, I have never had the pleasure of 
sitting up here, and you are very kind. [Laughter.]
    Senator Specter. Time is up. [Laughter.]
    Mr. Ramstad. The Senate always has the last word.
    I just wanted to say, Mr. Chairman and guests, I have been 
involved in the legislative process for 18 years--10 as a 
Minnesota Senator and 8 here as a Member of Congress--and I 
have never heard such powerful, compelling testimony either, as 
Senator Bumpers mentioned.
    And I believe today, Mr. Chairman, the subcommittee took 
the first step--took the first step in educating Congress as to 
the ravages of drug and alcohol addiction, the first step in 
educating Congress to the fact that chemical addiction is a 
disease. I believe that you took the first step in this 
subcommittee to educating Congress to the fact that treatment 
for this disease works.
    And, Mr. Chairman, there are 26 million American addicts 
and alcoholics out there, and we need to educate every member 
of this body and the body on the other side of the Capitol that 
these 26 million Americans can recover, but not unless we 
provide parity for substance abuse treatment. That is the 
bottom line.
    This year, Congress can take the big step to knock down the 
barriers to treatment, Mr. Chairman, just like Congress took 
the big step, in 1964, to knock down the barriers to 
integration, just like Congress took the big step to knock down 
the barriers for people with disabilities, in the Americans 
with Disabilities Act. One of the witnesses said--and all of 
you did such a wonderful job--this is an equal opportunity 
disease. It is a bipartisan disease. It affects people from all 
walks of life equally.
    But, Mr. Chairman, in concluding, let me say, if we work 
together, all of the witnesses here today and the communities 
you represent across America, if we work together in a 
bipartisan, pragmatic way, we can pass the Substance Abuse 
Treatment Parity Act. Because it means life or death for 26 
million Americans.
    Again, thank you, Mr. Chairman, for your strong leadership 
and for holding this important hearing today.
    Senator Specter. Thank you, Congressman Ramstad.
    We will come to you in just 1 minute, Dr. Aldrin. I want to 
have a concluding statement now from Senator Wellstone.
    Senator Wellstone. I know we have to finish. I would be 
pleased to give my time to Dr. Aldrin.
    Senator Specter. Dr. Aldrin will have some time to speak. 
You are entitled to a closing statement, Senator Wellstone.
    Senator Wellstone. I have been just listening carefully to 
what everybody has said. And I thank you.
    I do not think there is any one answer. Mr. O'Connor talked 
a lot about law enforcement and people who get away with 
murder. And there is that part of it. And he was talking about 
drugpushers. I also heard some testimony which I think is going 
to be extremely important, Mr. Chairman--and you have been a 
leader in this area for years--about some of the studies that 
have come out.
    I think part of what is going on is our policy lags way 
behind. It is based upon outdated assumptions. It is based upon 
stereotypes. It is not at all based upon what we now know about 
the causes, the biochemical, the neurological causes, and also 
the treatment that works, that is effective. And so I think 
part of it is an educational challenge. And I think we can do 
that, Mr. Chairman. I think we can do that with Senators and 
staff. I think we can do it in the country.
    I think this documentary, Mr. Moyers, is a very, very, very 
important step. I think it is historically significant.
    And then I guess my last point would be that, as I listened 
to different people speaking, I was thinking, Ms. Phillips, 
about what you said. It applies to others, as well, what 
William said, what Shawn said. It is inspiring to hear about 
how people were able, Dale, to somehow triumph.
    But the individual stories are not enough for our country, 
because even when people, men and women, say, I have got to 
make a change, I will be destroyed and I will destroy others, 
too many people cannot find any treatment. It is like you are 
covered for 1 or 2 days in a detox center, and that is it. And 
that will not work.
    So the other thing we have got to do is make sure that the 
treatment is there, that it is available for people, that it is 
affordable, that it is accessible. And I think we absolutely 
have to end the discrimination against people, and make sure 
that this is treated as a medical disease, which is chronic and 
recurring, and that the coverage is there for people. That is 
the legislation that we are talking about.
    And this, Mr. Chairman, feels very much like the journey I 
was able to take with Senator Domenici, you know, on the mental 
health parity. And I think the education was there and people 
became involved and people spoke up, and we were able to get 
this done. And it made a difference. And I think that is 
exactly what we are going to do.
    Thank you very much.
    Senator Specter. Thank you very much, Senator Wellstone.
    Mr. Aldrin, one final comment.
    Mr. Aldrin. Yes, sir; Mr. Chairman, I would like to add 
just one further thought. I think there are great varieties of 
methods and manners that people can recover. Many can recover 
as they see the light, and from that point on they go on and 
they have sobriety.
    There is no doubt in my mind that when I went through my 
first recovery, I was convinced that I had to stop drinking, 
but I could not. It took me 3 years. That was the most 
difficult thing that I have ever done in my life. And some 
people are able to do it quickly. Some people need many 
treatments.
    So I think you have to provide a variety of modes of 
recovery. And you have to have methods of determining the 
differences that exist. I think the productivity of my life 
today indicates that it was well worth the patience that those 
people had in the faith that I would eventually recover.
    Thank you.
    Senator Specter. Well, thank you very much, Dr. Aldrin. 
Your testimony along with William Cope Moyers, Mackenzie 
Phillips and Shawn Colvin are all very inspirational. This is a 
very important hearing for many reasons, and I regret we do not 
have 10 times as much time.
    This subcommittee has the responsibility for Health and 
Human Services and Education and Labor, and there are so many 
important subjects. We did want to have these matters brought 
up today with the maximum time that we could accommodate. When 
the people who have suffered the problems testify about it, it 
is special.
    Mr. Hafer, we are glad to hear what your company is doing. 
It is an inspiration to other companies. It is going to be 
hard, frankly, to pass legislation to make sure that all 
insurance policies cover alcohol disability, notwithstanding 
the fact that many of us are for that. Because every time you 
do that, it raises the costs. There are a lot of factors. When 
the companies get involved, you do not have to ask the Senate 
to concur.
    The Betty Ford Foundation is extraordinary.
    Carroll O'Connor only told you a fraction of what he has to 
say. I want to make just one comment about Mr. O'Connor's 
litigation issue with a certain drug dealer. He fought it out 
in court and then won, to try to bring a modicum, a small 
amount, of justice in a very grave personal tragedy. But a lot 
of courage there.
    And Mr. Bill Moyers, the elder, is moving ahead with the 
documentary. And he is going to reach more people than we will 
on C-SPAN II or even on a snippet on the networks tonight. But 
this is part of an ongoing battle, and I think we made a little 
progress today. So we thank you all.

              prepared statement of senator larry e. craig

    We will insert an additional statement from Senator Craig 
at this point in the record.
    [The statement follows:]

              Prepared Statement of Senator Larry E. Craig

    Mr. Chairman, thank you for holding this very important 
hearing on drug addiction and recovery. Almost all Americans 
are affected by drug addiction, whether they are presently 
addicted, former addicts, or a friend or loved one of someone 
suffering from drug addiction. This says nothing of the effects 
of crime and poverty that go hand in hand with this plague. 
This is a critical issue of national significance, and needs to 
be fully addressed.
    This hearing today will open the eyes of America to the 
problems of drug addiction as well as the difficulty of 
recovery. However, recovery is possible, as shown here today. I 
commend the Chairman and the Ranking Member for gathering such 
a broad-based and experienced panel of witnesses. I look 
forward to listening to everyone here today.
    This hearing will undoubtedly be interesting and 
informative as to the recovery of drug addiction. However, we 
need to concentrate not only on recovery, but prevention as 
well. We need to dry up the demand, and cut off the supply if 
we want to win the war on drugs.
    I look forward to the discussions here today. It is 
important that we evaluate a wide array of options to continue 
our fight against drug abuse.

                         conclusion of hearing

    Senator Specter. That concludes the hearing. The 
subcommittee will stand in recess subject to the call of the 
Chair.
    [Whereupon, at 12:30 p.m., Tuesday, March 24, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                  <all>
</pre></body></html>
